No..
€ E
IN THE
SUPREME COURT OF THE UNITED STATES

JOSEPH J. CRAIG
Petitioner,
v.
STATE OF KANSAS
Respondent.

On Petition for a Writ of Certiorari
to the Supreme Court of the State of Kansas

PETITION FOR A WRIT OF CERTIORARI

FILED •
SEP 2 3 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

Joseph J. Craig#115909
Ellsworth Correctional Facility
Po Box 107
Ellsworth, Kansas 67439-0107
(785) 472-6332
Pro Se

RECEIVED
SEP 3 0 2020
•FFICE OF THE CLERK
SUPREME COURT. U.S.

■<

QUESTIONS PRESENTED FOR REVIEW
Did the Kansas Supreme Court deny the defendants rights to a fair trial under the Due
Process Clause when it should have ruled the defendant was entitled to a voluntary
intoxication jury instruction for his defense?

1

TABLE OF CONTENTS
Questions Presented

i

Table of Contents

.11

Table of Authorities

m

Opinion Below

1

Jurisdiction,

1

Constitutional and Statutory Provisions Involved,

2

Statement of the Case

3

Argument
I. The Kansas Supreme Court Ruling Against Craig is Contrary to the Due
Process Clause and Craigs Right to Present a Defense
4
Conclusion

7

Appendix
Appendix A Opinion of the Kansas Supreme Court

n

TABLE OF AUTHORITIES
Cases
Chambers v. Mississippi, 410 U.S. 284, 35 L.Ed. 2d 297, 93 S. Ct. 1038 (1978)

3,4

Faretta v. California, 422 U.S. 806, 95 S. Ct. 1068 (1970)

5

Hopt v. People, 104 U.S. 631, 26 L.Ed. 873 (1881)

3

In re Winship, 397 U.S. 358, 25 L.Ed. 2d 368, 90 S. Ct. 1068 (1970)
State v. Betancourt, 299 Kan. 131, 322 P.3d 353 (Kansas 2014)

5,6
4

State v. Craig, 462 P. 3d 173 (Kansas 2020).............

3,4,5

United States v. Boyles, 57 F.3d 535 (7th Cir 1995)

5

United States v. Brownlee, 937 F.2d 1248 (7th Cir 1991)

4

United States v. Fazzini, 871 F.2d 635 (7th Cir 1989)

4

Constitutional Provisions:
U.S. Constitutional Amendment VI

2,5,6

U.S. Constitutional Amendment XIV.

2

Statutes:
28 USC § 1257 (a)

1

K.S.A. 2019 Supp 21-5205 (b)

3,6

iii

PETITION FOR WRIT OF CERTIORARI

Petitioner Joseph J. Craig (herein after Craig) respectfully prays that a Writ of Certiorari
be issued to review the judgement of the Supreme Court of the State of Kansas.
OPINION BELOW
The opinion of the Supreme Court of Kansas is publsihed at State v. Craig, 462 P.3d 173
(Kan. 2020) A copy of the opinion is attached as Appendix A.
JURISDICTION
i

The Kansas Supreme Courts Decision was entered on May 1st, 2020. This petition is
timely filed under Order, 2020 U.S. dated March 19th, 2020 authorizing 150 days from day
of final udgement to file a Writ of Certiorari due to COVTD-19. This Courts certiorari
jurisdiction is invoked under 28 USC § 1257 (a)

1

CONSTITUTIONAL PROVISIONS INVOLVED
The Sixth Amenment States in part that a criminal defendant shall have his "compulsory
process"
The Fourteenth Amendment Section I, provides in part:... "nor shall any State deprive any
person of life, liberty, or property, without due process of law"

2

STATEMENT OF THE CASE
In Hopt v. People, 104 U.S. 631, 26 L.Ed. 873 (1881) this court held that evidence
that the accused was in a state of voluntary intoxication at the time of the killing was
competent for the consideration of the jury upon the question whether he was in such a
condition as to be capable of deliberate premeditation, constituting murder in the first
degree under the statute. Id at 633-34. The Due Process Clause requires the admission of
all relevant evidence from the statements in Craigs case. Chambers v. Mississippi, 410
U.S. 284, 294, 35 L. Ed. 2d 297, 93 S. Ct. 1038 (1973)
When dealing with involuntary intoxication, Kansas law permits the use of a
voluntary intoxication to negate the intent element of specific intent crimes.
K.S.A. 2019 Supp. 21-5205(b) states:
"An act committed while in a state of voluntary intoxication is not less

criminal by reason thereof, but when a particular intent or other state of
mind is a necessary element to constitute a particular crime, the fact of
intoxication may be taken into consideration in determining such intent or
state of mind."
FACTS RELEVANT TO THE TRIAL
Joseph Craig, Gabrielle Williams, (Williams) Robyn Brown,(Brown) and a fourth
person were drinking alcohol and smoking marijuana one evening at Williams' apartment
in Junction City. State v. Craig, 462 P.3d 173, 175 (2020) After a plan was decided by
Williams to rob and kill the victim the events took a terriable turn and eventually the
victim was dead from three gunshots. Id at 175

FACTS RELEVANT TO THE APPEAL
Eventhough witnesses testified Craig was intoxicated prior to the shooting Id at
180-81 The Kansas Supreme Court ruled that there was not enough facts in the record,

3

to warrant a voluntary intoxication jury instruction. Id at 181
REASON FOR GRANTING CERTIORARI
Voluntary intoxication is a negative defense to specific intent crimes and a high
degree of intoxication can conceivably, under limited circumstances, render the defendant
incapable of attaining the required state of mind to commit the crime. United States v.
Fazzini, 871 F.2d 635, 641 (7th Cir. 1989), cert, denied, 493 U.S. 1095, 110 S. Ct. 1173, 107
L. Ed. 2d 1075 (1990); see also United States v. Brownlee, 937 F.2d 1248, 1253 (7th Cir.
1991). Most courts across the United States agree that there must be some evidence to
show a diminished capacity to form the required intent of the crime. See United States v.
Jackson, 213 F.3d 1269, 1291 (10th Cir. 2000) A defendant is not guilty of a specific intent
offense if voluntary intoxication prevented the defendant from forming the specific mens
rea required for that crime. Id
In Kansas a defendant is entitled to a voluntary intoxication instruction if there is
evidence supporting such a defense. See State v. Betancourt, 299 Kan. 131, 141 322 P.3d
353 (2014) Unless the State or the defendant presents sufficient evidence showing
intoxication to the extent of impairing the ability to form the requisite intent, a court is not
required to instruct the jury on the defense of voluntary intoxication. Id at 141.
I The Kansas Supreme Court Ruling Against Craig is Contrary to the Due
Process Clause and Craigs Right to Present a Defense
It is this courts view that the Due Process Clause requires the admission of all
relevant evidence from the statement in Chambers v. Mississippi, 410 U.S. 284, 294, 35 L.
Ed. 2d 297, 93 S. Ct. 1038 (1973), It is Craigs right that the right of an accused in a
criminal trial to Due Process is, in essence, the right to a fair opportunity to defend against
4

the_State's accusations. The Due Process Clause requires proof beyond a reasonable doubt
of every fact necessary to constitute the charged crime,

In re Winship, 397 U.S. 358, 364,

25 L. Ed. 2d 368, 90 S. Ct. 1068 (1970) This Court recognized that the Sixth Amendment
"grants to the accused personally the right to make his defense." Faretta u. California, 422
U.S. 806, 819 95 S. Ct. 2525, 45 L.Ed.2d 562 (1975), The Kansas Supreme Court denied
Craigs appeal when there was evidence, not from Craig, but from the States own witnesses
to show diminished capacity to form the required inent to commit murder.
In its opinion the Kansas Supreme Court identified witness statements that Craig
was intoxicated. First, Gabrielle Williams, (Williams) the alleged mastermind of the
robbery and killing Craig 462 P.3d at 175 testified that everyone was smoking marijuana
and ‘drinking alcohol, and when she was in the bathroom with Craig just before the
shooting, he was "mumbling to himself." Id at 180. However, the Kansas Courts then make
a determination, without any additional facts about the amount of marijuana and alcohol
was in Craigs system. Id Ms. Williams testified that everyone was "high" Id
Second, Jeremiah Warren testified to Craigs impairment follows:
"Pretty drunk. He was sitting down." Counsel then asked "do you mean that
he was so intoxicated he couldn't stand up?" Warren responded "he was on
the bed laying down with his eyes closed. I had to nudge him a little bit to get
up. So, I don't know if he was just tired and drunk at the same time, or if he
was just that drunk." Id at 181
The Seventh Circuit had held that:
A bald statement that the defendant had been drinking or was drunk is
insufficient - insufficient not because it falls short of the quantum of
evidence necessary, but because it is not evidence of the right thing. In order
to merit an intoxication instruction ... the defendant must point to some
evidence of mental impairment due to the consumption of intoxicants
sufficient to negate the existence of the [specific] intent [.]") (quotation and
citation omitted). United States u. Boyles, 57 F.3d 535, 542 (7th Cir. 1995)

5

Under Kansas law the fact of intoxication "may be taken into consideration" see
K.S.A. 2019 Supp. 21-5205 (b)
In this case you have independant corroborating witnesses testifying that Craig was
impaired, to the point that one witness testified that he was more or less passed out. The
"mumbling" is another sign of a persons inability to properly function ones motor skills.
Some of the eyewitness evidence contradicts the States version of the events, in either case,
It is up to the jury whoes version of events to believe. The jury also had for its
consideration second degree murder, which is a lesser included offense of 1st degree
Murder. Craig was entitled to a jury instruction of voluntary intoxication, with a jury
instruction of intoxication, there would be evidence of reasonable doubt as to Craings
"intent" which is a element of the crime and would be contrary to this courts holding in
Winship and its prior holdings under the Sixth Amendment. Accordingly, this court should
reverse Craigs conviction and remand for a new trial.

6

CONCLUSION
For the foregoing reasons, Petitioner, Joseph J. Craig, respectfully prays that a Writ
of Certiorari be issued to review the judgement of the Kansas Supreme Court.

Respectfully Submitted,

Joseph J. Craig# 115909
Ellsworth Correctional Facility
PO Box , 107
Ellsworth, Kansas 67439
Pro Se

7

